Jjo-fz o 'Thte doccj)**€/? r OJO,S

0>OQcriort<’-(l pr<2V/V5os/y ^
&i*z>rent'd Otoj QjtoT/cr^oAto‘o~c> onj :sq/-?£

- /P>-

P/cqsc

No. 20-5307

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
ERIC CHRISTOPHER CONN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA:
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Oct 14, 2020
DEBORAH S. HUNT, Clerk

ORDER

{

Before: KETHLEDGE, Circuit Judge.
Eric Christopher Conn, a pro se federal prisoner, appeals a district court’s judgment
denying his 28 U.S.C. § 2255 motion to vacate, set aside, or correct sentence. He has applied for
a certificate of appealability (“COA”)). See Fed. R. App. P. 22(b).
Conn’s scheme to defraud the Social Security Administration and his subsequent behavior
led to a series of federal criminal actions against him. In 2016, a grand jury indicted Conn on a
plethora of fraud-related charges, and he was placed on home detention with an electronic
monitoring device. See United States v. Conn, No. 5:16-cr-00022-DCR-l (E.D. Ky.). In 2017, he
was charged by information with theft of government money and paying illegal gratuities. See
United States v. Conn, No. 5:17-cr-00043-DCR-l (E.D. Ky.). Pursuant to a written agreement, he
pleaded guilty to both charges in exchange for the anticipated dismissal of the 2016 charges and
other concessions. However, Conn breached his plea agreement by removing his monitoring
device and fleeing to Honduras^ He was sentenced in absentia to 144 months in prison. Following
his apprehension and extradition, a grand jury indicted him in a second 2017 action on charges
related to his escape and failure to appear for sentencing. See United States v. Conn, No. 5:17-cr00104-DCR-CJS (E.D. Ky.). Negotiations resulted in charges by information, a plea agreement,
and Conn’s guilty plea to conspiracy to defraud the United States, conspiracy to escape, and

No. 20-5307
-2-

conspiracy to retaliate against an informant, all in violation of 18 U.S.C. § 371. See United States
v. Com, No. 5:I8-cr-00059-DCR-MAS (E.D. Ky.). The district court sentenced Conn to three
terms of 60 months in prison, to be served consecutively to each other and to his prior federal
sentence, 3 years of supervised release, and $72,582,962.70 in restitution. The charges in his 2016
and 2017 indictments (Nos. 5:16-cr-00022-DCR-l, 5:17-cr-00104-DCR-CJS) were dismissed.
Conn did not file a direct appeal.
Conn attempted to file a § 2255 motion challenging his conspiracy convictions, but, due to
possible clerk errors, problems with the mail, or both, his motion was received in pieces that were
out of order. After a magistrate judge entered an order that would have barred consideration of
two claims as untimely, the district court granted Conn’s motion to reconsider and permitted full
review of all claims.
Conn s complete § 2255 motion contained the following claims: (1) Attorney Scott White
rendered ineffective assistance of counsel by advising Conn to plead guilty to conspiracy to escape
even though he was not in custody at the time of his flight and even though the information did
not refer to the basis or nature of his original confinement and did not name a coconspirator;
(2) Attorney Willis Coffey rendered ineffective assistance of counsel by failing to challenge the
consecutive nature of the three prison terms for Conn’s conspiracy convictions; and (3) White
rendered ineffective assistance of counsel by operating under a conflict of interest. Conn asserted
that White participated in pre-plea proffer sessions and negotiated the final plea agreement for the
conspiracy charges despite his alleged involvement in the aforementioned criminal conduct and
additional criminal conduct in Central America. The government filed a premature response in
opposition in the midst of Conn’s filings. The district court denied Conn’s § 2255 motion on the
merits and declined to issue a COA.
In his COA application, Conn now names Coffey as the attorney who rendered ineffective
assistance by allegedly advising him to plead guilty to conspiracy to escape even though he was
not in custody at the time of his flight. Conn also reasserts that White rendered ineffective
assistance by operating under a conflict of interest. Attachments to the COA application include

No. 20-5307
-3-

Conn’s sworn declaration, an email from White to an Assistant United States Attorney, a letter
from White to Conn, and a letter from Conn to White.
An individual seeking a COA is required to make a substantial showing of the denial of a
federal constitutional right. See 28 U.S.C. § 2253(c)(2). “A petitioner satisfies this standard by
demonstrating that jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement tn nrnresd further ” Miller-El V. CorfoW/_5?7 Tr S

X)1 0003)

^^f^aninitial matter, the court declines to consider Conn’s attachmentT to'hiT'C????
iication because they were not presented to the district court. See Adams v. Holland, 330 F.3d
98, 406 (6th Cir. 2003).
Next, the courtdeclines toconsider Conn’s claims of ineffective assistance regarding
alleged errors in the information regarding the basis, of his original confinement and the naming of
a coconspirator and the alleged error regarding the consecutive nature of his prison terms for
conspiracy. Conn does not reassert these claims in his COA application and thus has forfeited
them. See Jackson v. United States, 45 F. App’x 382, 385 (6th Cir. 2002) (per curiam); Elzy v.
United States, 205 F.3d 882, 886 (6th Cir. 2000).
A brief history of Conn’s representation by counsel is useful before addressing his
remaining claims of ineffective assistance. Conn retained White as counsel after the 2016
indictment. White moved to be appointed as counsel a few months after the 2017 indictment,
contending that he could properly serve as counsel despite potential ethical issues arising from his
cooperation with the government after Conn’s flight to Honduras and his own near-simultaneous
trip to Nicaragua. Nonetheless, the district court terminated White’s representation and appointed
Coffey as counsel on January 4, 2018.Conn’s claim that trial counsel rendered ineffective assistance by advising him to plead
guilty to conspiracy to escape because he was not in custody does not deserve further
consideration. Conn initially identified Coffey as the attorney in question, but, in his memorandum
for his § 2255 motion, Conn identified White as the attorney who advised him to plead guilty.

No. 20-5307
-4However, White’s representation of Conn terminated five months before Conn entered his guilty
pleas to the conspiracy charges on June 4, 2018. Even if Conn’s reference to White in his § 2255
memorandum is construed as a scrivener’s error, given that Conn now contends in his COA
application that it was Coffey who gave bad plea advice, the underlying claim does not deserve
consideration to proceed further. After Conn had pleaded guilty to theft of government money
and paying illegal gratuities, he conspired to commit the offense of escape from custody in
violation of 18 U.S.C. § 751(a) and did so. In United States v. Rudinsky, 439 F.2d 1074, 1076 (6th
Cir. 1971), this court affirmed a § 751(a) conviction for escape where a prisoner failed to return to
a federal community treatment center at a prescribed time after being permitted to leave
temporarily for an approved reason. This court held that “[a] person may still be in custody, even
though not under constant supervision of guards, so long as there is some restraint upon his
complete freedom.” Id. And in United States v. French, 107 F. App’x 569, 570^71 (6th Cir. 2004),
this court affirmed a conviction for escaping from home confinement in violation of § 751(a)
where the defendant had escaped from home confinement with electronic monitoring while
awaiting trial on other charges. In this case, Conn’s freedom was restrained by the .order of home
confinement with electronic monitoring. Thus, Conn has not made a substantial showing that
either White or Coffey rendered ineffective assistance of counsel by providing deficient
performance with respect to his plea to conspiracy to escape. See Strickland v. Washington, 466
U.S. 668, 687(1984).
Conn’s claim that White rendered ineffective assistance of counsel by operating under a
conflict of interest likewise does not deserve further consideration. As mentioned above, White’s
representation of Conn terminated well before he entered his guilty pleas to the conspiracy charges.
Even if White had acted under a conflict of interest, the district court’s'decision to terminate his
representation and appoint Coffey as counsel remedied any conflict. See United States v. Rivas,
637 F. App’x 338, 339 (9th Cir. 2016). Thus, regardless of any similarities between the terms of
a potential plea offer mentioned by the government in purported plea negotiations with White and
the actual terms of the plea agreement obtained by Coffey, Conn has not made a substantial

No. 20-5307
-5 showing that he accepted a plea offer while being represented by counsel who was operating under
a conflict of interest. See United States v. Kilpatrick, 798 F.3d 365, 374-75 (6th Cir. 2015).
Accordingly, the court DENIES Conn’s COA application.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

/

D

•-Hy

(

!

Case: 20-5307

Document: 20-1

Filed: 01/05/2021

Page: 1

(1 of 2

No. 20-5307

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Jan 05, 2021
DEBORAH S. HUNT, Clerk

ERIC CHRISTOPHER CONN,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

ORDER

Before: SUHRHEINRICH, GILMAN, and LARSEN, Circuit Judges.

Eric Christopher Conn petitions for rehearing en banc of this court’s order entered on
October 14, 2020, denying his application for a certificate of appealability.

The petition was

initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

DO

*

i 17?.--<'2> doQzj H Cfft

de'^rcQOit-d

any

^ftOoi-art/osiS

-

QnOO^Q^d
or?

/£“-■

SQ/t/fi.

* r’/cafrc

uctse. o.io-ui-uuuD3-u^K-iviM3

uuc w. oz

Mieu: uj./51/zu

Kage: ±

ot

15 - page iu#: 3//

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
(at Lexington)
UNITED STATES OF AMERICA,

)
)

Plaintiff/Respondent,

)
)
)
)
)
)
)

V.
ERIC CHRISTOPHER CONN,
Defendant/Movant.
+

if: jfe >f:

% :jc s)s

Criminal Action No. 5: 18-059-DCR
and
Civil Action No. 5: 19-416-DCR
MEMORANDUM OPINION
AND ORDER

j|s sfc

Defendant Eric Conn pleaded guilty to conspiring to defraud the United States,
conspiring to escape, and conspiring to retaliate against a witness. He was sentenced to 60
months’ imprisonment on each count, to run consecutively, for a total term of 180 months’
imprisonment. Conn has now filed a motion to vacate, set aside, or correct his sentence
pursuant to 28 U.S.C. § 2255 based on claims of ineffective assistance of counsel.
Because Conn has failed to establish that his attorney’s assistance fell below an
objective standard of reasonableness or that he was prejudiced by counsel’s performance, his
motion will be denied.
I.
Conn was indicted in 2016 on numerous charges arising from his involvement in a wellpublicized scheme to defraud the Social Security Administration. [See Lexington Criminal
Action No. 5: 16-022-DCR.] He retained attorney Scott White, among others, to represent
him in the proceeding. ^nNlarch2 0 L7^^pl^^^^jj^po an informahoi^hargin£dieftof^
government money and paying illegal gratuities with the understanding that the govepiment
-1-

case: o:io-cr-uuuoy-uui-<-iviAi> uocffioz Hiea: ui/zi/zu rage: z ot is - Mage ilm: z/ts

would move to dismiss the charges in Lexington Criminal Action 5: 16-022-DCR at
sentencing. [Lexingt;

Criminal Action No. 5: 17-043-DCR] But in June 2017, while on

home detention^rior to sentencing, Connlremoved his electronic monitoring device and fled
to Hondura/ On July 14, 2017, he was/entenced in absentia to 144 months1 imprisonment in
Lexington Criminal Actio:
charges o:

7-043-DCR. Shortly thereafter. Conn was indicted on

^rie"’and failure to appear in court. [Lexington Criminal Action No. 5: 17-CR-

104-DCR]
Comi was arrested by Honduran authorities and extradited back to the United States in
December 2017. Because Conn breached the terms of the plea agreement in Lexington
Criminal Action No. 5: 17-043-DCR, the United States elected not to dismiss the charges in
Lexington Criminal Action No.' 5: 16-022-DCR. Lacking sufficient funds to continue to pay
for White’s services, Conn asked the Court to appoint White under the Criminal Justice Act,
18 U.S.C. § 3006A.

[Lexington Criminal No. 5: 16-022, Record No. 298] The Court

determined that Conn qualified for appointed counsel, but declined to appoint White, and
instead appointed complex-qualified CJA Panel member Willis Coffey on January 4, 2018.
Id. at Record No. 302.
Coffey assisted Conn in negotiating the plea agreement into which the parties entered
in the instant matter. Conn agreed to plead guilty to an i

chargii

defraud the United States, conspiracy to escape, and conspiracy to retaliate against a witness
all in violation of 18 U.S.C. § 371. [Lexington Criminal Action No. 5: 18-CR-059-DCR] In
return, the Ur^ted States agreed to dismiss the charges in Lexington Criminal Action Nos. 5:
16-022-DCR and 5: 17-104-DCR upon entry of judgment in this matter. [Lexington Criminal
No. 5: 18-059, Record No. 7] ’
-2-/

v-^aac.

j.io-l.1

*uuuj^-L;ur\-iviMO

UUU if. D£

rneu. ui/oi/^u

rctye. o ui ±o - raye-iuff; c5/y

Conn pleaded guilty to the information on June 4, 2018 and was sentenced on
September 7, 2018. Conn’s offense level of 43 and criminal history category of II produced a
guidelines range of life. However, each count of conviction carried a statutory maximum
sentence of 60 months. See 18 U.S.C. § 371. Because the statutorily-authorized maximum
sentences were less than the minimum of the applicable guidelines range, the guidelines range
became 180 months. See U.S.S.G. § 5G1.2(b). Consistent with the parties’ plea agreement,
the Court sentenced Conn to a 60-month term of imprisonment on each of the three counts, to
run consecutively, for a total of 180 months. The Court ordered that the term would run
^--------—----

consecutively to the 144-month term imposed in Lexington Criminal Action No. 5: 17-043DCR. Conn waived his right to appeal the guilty plea, conviction, and sentence, and forfeited
his right to bring a collateral attack under § 2255, with the exception of claims of ineffective
assistance of counsel.

✓

Conn did not pursue a direct appeal. However, on October 1, 2019, the Court received
a partially-completed motion to vacate, set aside, or correct sentence pursuant to 28 U.S.C. §
2255 which was prepared on form AO 243, and dated September 25, 2019. [Record No. 351] It consists of pages two, three, seven, eight, and thirteen. There is only a “ground three,”
for relief in which Conn claims that attorney White provided ineffective assistance due to a
conflict of interest. Conn requested an extension of time until November 1, 2019, to file “a
supporting ‘all inclusive’ memo of law.” That request was denied. [Record No. 36]
The Court received a six-page handwritten motion to vacate, set aside, or correct
sentence pursuant to § 2255 on October 8,2019, which is dated September 20,2019. [Record
No. 37] Conn again alleged that White provided ineffbctive~assistancrdurt^a conflict of
interest.

The motion contains an additional allegation that Coffey provided ineffective
-3 -

Case: 5:18-cr-00059-DCR-MAS Doc#: 52 Filed: 01/31/20 Page: 4 of 15 - Page ID#: 380

assistance by advising Conn to plead guilty to the escape charge. Conn’s handwritten § 2255
petition was docketed as a motion and submitted to United States Magistrate Judge Matthew
A. Stinnett, who directed the United States to respond to the issues presented. See 18 U.S.C.
§ 636(b). [Record No. 40]
On November 18, 2019, Conn tendered a motion to amend the § 2255 petition, which
Magistrate Judge Stinnett denied to the extent that the new issues raised therein did not relate
back to the original § 2255 motion. [Record Nos. 43, 45] Conn has now filed a motion to
reconsider the Magistrate Judge’s decision denying the motion to amend. [Record No. 50] In
support, Conn reports that it has just come to his attention that an incomplete AO 243 form/§
2255 motion was filed in the record on October 1, 2019. He contends that on September 25,
2019, he mailed to the Court a 12-page AO 243/§ 2255 motion that included three grounds for
relief. He suggests that a clerical error must be to blame for the omission and he has provided
a copy of the completed AO 243/§ 2255 motion he purportedly tendered on September 25,
2019. [Record No. 50-1]
A prisoner’s motion is deemed filed on the day he places it in the prison mail system.
Houston v. Lack, 487 U.S. 266, 271-72 (1988). Conn concedes that he placed the handwritten
§ 2255 motion in the prison mail system on September 20, 2019, and
243 form in the prison mail system on September 25, 2019.

Le placed the

.ecord No. 49, pp. 1-2]

Accordingly, the handwritten motion is the operative § 2255 filing in this case. However, the
Court previously determined that Conn’s deadline for filing a § 2255 motion was September
27,2019. Both motions are timely filed based on the dates Conn attests he placed them in the
prison mail system.

-4-

Case: 5:18-cr-00059-DCR-MAS ' Doc #: 52 F .ed: 01/31/20 Page: 5 of 15 - Page ID#: 381

When a prisoner files a second § 2255 motion before adjudication of a first § 2255
motion is complete, the second motion is construed as a motion to amend. Clark v. United
States, 164 F.3d 653, 659 (6th Cir. 2014) (discussing Chingv. United States, 298 F.3d 174,
175 (2d Cir. 2002)); United States v. Bibbs, No. 12-cr-20332, 2017 WL 7805745, at *1 (E.D.
Mich. Mar. 30,2017) (collecting cases). The liberal standards of Rule 15 of the Federal Rules
of Civil Procedure govern amendment of a petition for writ of habeas corpus under § 2255.
See Hodges v. Rose, 570 F.2d 643, 649 (6th Cir. 1978). Had the Court received the 12-page
AO 243/§ 2255 motion on October 1, 2019, it certainly would have granted Conn leave to
amend his earlier, handwritten motion.1 See Fed. R. Civ. P. 15(a). Accordingly, in the interest
of resolving Conn’s claims on the merits, the Court will consider all of the arguments raised
in Conn’samendedj 2255, which he contends he mailed to the Court on September 25, 2019.
[RecordNo. 50-21 BiiLhgoaTjSgJl^ewTssues^raisedhiv^
no additional response from the United States is needed.2
II.
A defendant who moves to vacate his sentence under 28 U.S.C. § 2255 must
demonstrate the existence of an error of constitutional magnitude that had a substantial and
injurious effect or influence on the proceedings; that the sentence imposed is outside the

1
It is still not entirely clear why Conn’s handwritten motion, which purportedly was
deposited in the prison mail system on SeptemberjO. 20 ^arrived at the Court a week after the
AO 243, which purportedly was deposited in the prison mail system on September 25, 2019.
Regardless, the Court accepts Conn’s version of events as true for the purposes of this analysis.
The United State^tendered a response to Conn’s § 2755 rrmtinn nn
97 701 Q
[Record No. 42d-€onn was permitted to tender a~reolv within 30 days of the government’s
response, but CoftT^ajmaSfefTg^SD and the deadline nas expired.
-5-

Case: 5:18-cr-00059-DCR-MAS 'Doc #: 52 Filed: 01/31/20 Page: 6 of 15 - Page ID#: 382

statutory limits; or that there was an error of fact that was so fundamental, it rendered the entire
proceeding invalid. United States v. Doyle, 631 F.3d 815, 817 (6th Cir. 2011).
The Sixth Amendment to the United States Constitution guarantees that criminal
defendants are entitled to the right of assistance of counsel. Beasley v. United States, 491 F.2d
687, 692 (6th Cir. 1974). To succeed on a claim of ineffective assistance of counsel, the
defendant must satisfy two elements: that counsel’s performance fell below an objective
standard of reasonableness and that the defendant was prejudiced-by counsel’s performance.
Strickland v. Washington, 466 U.S. 668, 687-88 (1984).
A defendant who seeks to challenge the validity of his guilty plea based upon a claim
of ineffective assistance of counsel may do so by showing “that there is a reasonable
probability that, but for counsel’s errors, he would not have pleaded guilty and would have
insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 58 (1985); Griffin v. United States,
330 F.3d 733, 737 (6th Cir. 2003). Alternatively, a defendant may succeed on an ineffectiveassistance claim by showing that there is a reasonable probability that, but for counsel’s errors,
“the end result of the criminal process would have been more favorable by reason of a plea to
a lesser charge or a sentence of less prison time.” Rodriguez-Penton v. United States, 905 F.3d
481, 487 (6th Cir. 2018) (quoting Missouri v. Frye, 566 U.S. 134, 147 (2012)).
Conn has the burden of proving his allegations by a preponderance of the evidence.
Pough v. United States, 442 F.3d 959, 964 (6th Cir. 2006).
III.
A.

Counsel’s Advice Concerning Escape and Other Conspiracy Charges

:-W

-6-

case: biits-cr-uuuby-DCK-MAS ■ Doc #: 52

...id: 01/31/20 Page: 7 of 15 - Page ID#: 383

Conn claims that attorney Coffey failed to raise proper challenges to the charge of
conspiring to escape.3 First, he contends that his guilty plea to this charge was not knowing
and voluntary because he was not detained “in custody so as to trigger escape conviction.” He
also complains that the charge “failed to include reference to basis of original confinement nor
specify nature of confinement.” [Record No. 50-2, p. 4]
Any suggestion that Conn’s guilty plea was not knowing and voluntary is belied by the
colloquy that took place in open court during the change-of-plea hearing. The undersigned
scrupulously followed the procedures required under Rule 11 of the Federal Rules of Criminal
Procedure and the defendant is bound by the answers he gave in response to the Court’s
questions. See United States v. Todaro, 982F.2d 1025,1029 (6th Cir. 1993). The undersigned
read the lengthy factual basis of the plea agreement aloud during the hearing. Conn, a former
attorney, advised the Court that the factual basis was true and correct. Additionally, he
reported that he had reviewed the agreement with attorney Coffey, which he also
Acknowledged by placing his initials in the lower right comer of each page of the factual basis.
When asked to summarize in his own words what he had done to be guilty of conspiring
to escape, Conn stated that he and his former employee, Curtis Wyatt, had discussed ways that
he could abandon his GPS monitoring and not report for sentencing. Conn further stated that
he did eventually leave and “was gone for about six months” until he was “brought back by

3 Title 18 of the United States Code, section 371, provides: If two or more persons-conspire
either to commit any offense against the United States, or to defraud the United States, or any
agency thereof in any manner or for any purpose, and one or more of such persons do any act to
effect the object of the conspiracy, each shall be fined under this title or imprisoned not more than
five years, or both.
- y:-’

-7-

Case: 5:18-cr-00059-DCR:MAS Doc#: 52 Filed: 01/31/20 Page: 8 of 15 - Page ID#: 384

the government.” Conn advised the Court that he wished to plead guilty to the information
because he was in tact guilty and for no other reason.
^Unambiguous termsagreed toby thedefeiidant in open court will be enforced. McAdoo
v. Elo, 365 F.3d 487, 496 (6th Cir. 2004). Further, solemn statements made in open court
“carry a strong presumption of verity.” Blackledge v. Allison, 431 U.S. 63, 74 (1977). Conn
clearly demonstrated his ability_to knowingly and voluntarily enter a guilty plea in this matter,
„ and he has not pointed to any factors which place that status into question.
It appears that Conn’s real argument is that his conduct does not constitute escape. Title
Wffi United States Code, Section 751, prohibits escape or attempted escape from the custody of
the Attorney General or his authorized representative, any institution or facility in which a
i

| defendant is confined by direction of the Attorney General, or from any custody under “or by
Jff virtue of any process issued under the laws of the United States by any court, judge, or
magistrate judge. ...” (emphasis added).
Count 2 of the information charged that, beginning in or around June 2016, and
continuing throughJune£017^Com:Conspired with other persons includingQortis Lee Wyatt
to escape from custody. [Record No. 4, pp. 4-5] Both the information and plea agreement
provided extensive factual background underlying the charge. To wit, Conn was charged with
various felony offenses, including conspiracy to commit mail and wire fraud and the Court
issued a warrant for his arrest. [Record No. 7-1, p. 18] Following Conn’s arrest and initial
appearance, this Court ordered Conn to be confined via home incarceration at his residence in
Pikeville, Kentucky, with active electronic monitoring, pending trial. He was ordered to
appear in person at all future court hearings. Id. at p. 19.
■V

-8-

Case: 5:18-cr-00059-DCR:MAS Doc #: 52 Filed: 01/31/20 Page: 9 of 15 - Page ID#: 385

Conn received permission from the United States Probation Office (“USPO”) to leave
his residence to travel to Lexington, Kentucky on June 1, 2017, for the purpose of preparing
to testify at a co-defendant’s trial. Id. But instead of returning to his residence on June 2,
2017, as required by USPO, Conn met with Wyatt who supplied him with a vehicle and
Faraday bag. Id. at p. 21. At around 8:00 p.m. on June 2, 2017, Conn severed the Courtordered electronic monitoring device from his ankle, placed it in the Faraday bag supplied by
Wyatt, and fled the jurisdiction of the Court in the vehicle supplied by Wyatt. Id.
The plain language of section 751 supports a reading of “custody” that is not limited to
physical confinement. Here, Conn was in custody by virtue of a felony arrest warrant issued
by this Court and an April 12, 2016 Release Order which placed Conn on home incarceration
with electronic monitoring and prohibited travel outside the Eastern District of Kentucky.
Additionally, Conn was ordered to appear in person at all court hearings involving him.
[Lexington Criminal No. 5: 16-022-DCR, Record No. 40]
Courts have routinely recognized a broad definition of custody, which merely requires
some restriction on a defendant’s freedom that prevents him from coming and going at will.
See United States v. Sack, 379 F.3d 1177, 1179 (10th Cir. 2004); United States v. Rudinsky,
439 F.2d 1074, 1076 (6th Cir. 1971). And the United States Court of Appeals for the Sixth
Circuit has recognized that a defendant may violate § 751 by escaping from home confinement
while awaiting trial for fraud. United States v. French, 107 F. App’x 569 (6th Cir. 2004).
Conn suggests, alternatively, that the information was not sufficiently specific because
it “failed to include reference to basis of original confinement” or “specify nature of
confinement.” This argument makes little sense. An indictment must fairly inform a defendant
of the specific charge against which he must defend and enable him to “plead an acquittal or
-9-

Case: 5:18-cr-00059-DCR-MAS _ Doc #: 52 Filed: 01/31/20 Page: 10 of 15 - Page ID#: 386

conviction in bar of future prosecutions for the same offense.” Hamling v. United States, 418
U.S. 87, 117 (1974). Here, Conn waived his right to prosecution by indictment and pleaded
guilty to an information, which was accompanied by a lengthy statement of facts which
detailed the nature of Conn’s confinement. As Conn acknowledged during his re-arraignment
hearing, he was well-aware of these facts and had reviewed them with his attorney. He has
not identified any aspect of counsel’s performance that was deficient, nor has he shown that
he was prejudiced by a lack of specificity in the manner in which Count 2 was charged.
Conn also asserts that the “conspiracy allegation failed to include a co[-]conspirator
and petitioner could not be convicted of a conspiracy by himself.” [Record No. 50-2, p. 4] It
'

^_________

is unclear to which count Conn is referring, since each of the three counts in the information
U-'

involved a conspiracy. And while the names of co-conspirators do not have to be known, see
United States v. Rey, 923 F.2d 1217,1222 (6th Cir. 1991), each count named at least one other
individual with whom Conn conspired, or agreed, to commit the substantive offense. Count
^^^^irac>^^fram^^^^e^t^^llegedAa^oni^onsphe^wi^t^rs^cludmg
David^Black_Daughe^_and_Alfired^radley Adkins__Count 2, conspiracy to escape, alleged
^ha^jom^on^irecyvrt^^j^iyi^clin^Cmj^^^Wy^^^nd Count 3. conspiracy to
retaliate against a witness, alleged that Conn conspired with othgES~a&g¥s4a

ling Charlie

Paul Andrus.
n short, Conn’s assertion is factually inaccurate and his argument is without merit.
B.

Counsel’s Failure to Challenge 180-Month Sentence

Conn was sentenced to 60 months’ imprisonment on each of the three convictions under
18 U.S.C. § 371. Consistent with the parties’ recommendation, the undersigned ordered that
the terms would run consecutively, for a total term of 180 months. [See Record Nos. 7, p.3;
- 10-

Case: 5:18-cr-00059-DCR-iyiAS Doc #: 52 Filed: 01/31/20 Page: 11 of 15 - Page ID#: 387

18.] Conn now contends that attorney Coffey was constitutionally ineffective for failing to
challenge this sentence because it exceeds the “[five years] prescribed statutory maximum'
prison term authorized by the general conspiracy provision.” [Record No. 50-2]
A conviction under § 371 carries a maximum term of imprisonment of five years. Conn
P^£££j^^^^^^^^^^^^™^£^^i^^^violate^^371^onspiracy to defraud
the United States; conspiracy to escape; and conspiracy to retaliate against a witness

The

conspiracies spanned different time periods, involved different individuals, and had distinct
goals. Each, standing on its own, camed-lLjnaximum term of imprisonment of five years, and
/there is no bar againstjmposing these sentences rrmgpmtiVpiy

9

Smith, 424 F.3d 992,1002T)3 (9th Cif. 2005). Conn recognized this prior to entering his guilty
/plea and agreed to recommend to the Court that he be sentenced to three consecutive 5-year
terms of imprisonment, for a total term of 15 years. [Record No. 7, p. 3]
\

'/>

^Contrary^^^^^^^mgge£ion, each conspiracy involved different conduct which

iolated a different underlying statute H8 U.S.C.

37f,_751, 1513). There is nothing to

suggest—and Conn does not contend—that the United States was willing to enter into a plea
agreement which recommended a shorter sentence. Conn has not identified any aspect of
counsel’s performance that was deficient or shown that he has been prejudiced by counsel’s
failure to make a frivolous argument. If not for the plea agreement that attorney Coffey helped
fft/l/ffi

negotiate in this matter, Conn would have been facing numerous fraud charges in Lexington
Criminal Action No. 5: 16-022-DCR and multiple charges for escape and failure to appear in
Lexington Criminal Action No. 5: 17-104-DCR. Put simply, Conn’s post hoc desire for a more
favorable plea agreement in this matter is not is not a valid reason for setting aside his sentence.
Attorney White’s Alleged Conflict of Interest

Case: 5:18-cr-00059-DCR-MAS Doc#: 52 Filed: 01/31/20 Page: 12 of 15 - Page ID#: 388

Conn contends that his guilty plea, conviction, and resulting sentence are invalid
because
defense counsel who guided petitioner through plea process and resided [sic]
over sentencing, operated with a clear ‘conflict of interest’ where [attorney]
Scott White was involved with some of the alleged criminal conduct and other
criminal conduct in Central America; but also participated and directed the tenor
and ‘four corners’ of pre-plea [proffer] sessions with the FBI and U.S.
Attorney’s Office, and further negotiated the final plea agreement. And despite
having to previously reveal all such in great detail to members of the U.S.
Attorney’s office, the plea and conviction moved forward anyway.
To the extent this claim includes sufficient factual details to raise an issue under § 2255,
it is entirely contradicted by the record.4 As previously stated, Conn retained attorney White
near the outset of his initial criminal prosecution in 2016. [Lexington Action 5: 16-022-DCR]
White assisted Conn in reaching a plea agreement in Lexington Criminal Action 5: 17-CR043-D.CR, in which Conn agreed to plead guilty to an information and the United States agreed
to dismiss the charges in 5: 16-CR-022-DCR. ButCkmnJ^reache^^he^tenns^f the nlea
agreement in 5: 17-CR-043-DCR by fleeing to Honduras on JunaJ^Ol T:-—
White made numerous public statements urging Conn to surrender following his
escape. Id. at RecordNo. 298, p. 8._He was debriefed by FBI agents following his own return
to Lexington, Kentucky from a mission trip to Nicaragua on June 3, 2Q\l.(jd) White also
allowed agents to inspect his computer in an effort to locate the source of e-mail messages he
C_

had received from Conn while Conn was on the run.

The Court must hold an evidentiary hearing when a factual dispute arises. However no
hearing is required when the petitioner’s allegations “cannot be accepted as true because they are
contradictgd-by the record, inherently incredible, or conclusions rather than statements of fact.”"
Valentine vUJnited States~4SS F.3d 325, 333 (6th Cir. 2007) (quoting Arredondo v. United States,
178 F.3d 778, 782 (6th Cir. 1999))!
'
'------------------------------ ■y~-

- 12-

Case: 5:18-cr-00059-QCR-’MAS Doc#: 52 Filed: 01/31/20 Page: 13 of 15 - Page ID# : 389

Conn was arrested in Honduras in early December 2017. Still represented by White,
he appeared in court for the first time following his apprehension on December 6, 2017. Conn
requested a formal bond revocation hearing, which was scheduled on December 28,2017. The
United States submitted a status report on December 13, 2017, indicating that it intended to
prosecute Conn in Lexington Criminal Action No. 5: 17-104-DCR and then proceed with his
prosecution in Lexington Criminal Action No 5: 16-022-DCR. Id at Record No. 287. White
tendered a status report on December-27, 2017, stating that Conn would oppose the UnitedStates’ prosecution of him in Lexington Criminal Action No. 5: 16-CR-022-DCR. as it was
Conn’s position that he had subst^atialJ^LCOinglied^adlh. ■£ terms of his plea agreement in 5:
17-CR-043-DCR. Id. at Record No. 297.

T

The following day, Conn moved for White to be appointed under the CJA because he
could no longer afford to retain him. While the Court did not find that White had any conflict
of interest in continuing to represent Conn, the Court did foresee “complaints down the line
from Conn”

ite continue

counsel in the matter. [Lexington Criminal No. 5: 16-

CR-Q2xdDCR^R.ecord No. ^302]^B€lieving that such comi Jaints could be eliminated by

January 4. 2018. Id.
Conn has filed a motion to vacate, set aside, or correct his sentence in Lexington
Criminal Action No. 5:- 18-059-DCR. He contends that “Counsel White worked out with the
counsel for the government the post-leaying charges to be resolved in an agreed-upon plea.”

action was instituted nearly five months after White’s termination from representing Conn in
any criminal proceedings in this Court. [Lexington Criminal Nos. 5: 16-022-DCR, 5: 17-043- 13 -

Case: 5:18-cr-00059-DCR-MAS ,poc #: 52 Filed: 01/31/20 Page: 14 of 15 - Page ID#: 390

DCR, and 5: 17-104-DCR] While White most certainly was involved in securing Conn’s plea
r

agreement in 5: 17-043-DCR, that is not the matter at hand.5 And although some of the same
<Tr-,...

------

==^^===

information may have been involved, that does not change the fact that attorney Coffey
represented Conn throughout the proceedings in this matter and he alone was responsible for
negotiating the plea agreement on Conn’s behalf. Conn cannot obtain § 2255 relief based on
Whil£is_alleged shortcomings when he did not represent him in the case.

■/)

IV.
This Court must issue or deny a certificate of appealability when itentfefs a final order
that is adverse to the movant in a § 2255 proceeding. Rule 11 nfthr Rnlpg r^ygniing § 2255
Proceedings for the United States District Courts; 28 U.S.C. § 2253(c)(1)(B). A certificate of
appealability may be issued only whgrUlie defendant has “made a substantial showing of the
denial of a constitutional right.^/§ 2253(c)(2)^)To satisfy thisburden/the defbndaifhiusts^w
that reasonable jurists could debate whether*"the petition should have been resolved in a
different way or that the issues involved were adequate to proceed further. Slack v. McDaniel,
529 U.S. 473, 484 (2000).
Conn’s petition does not satisfy these standards.

His claims regarding attorney

Coffey’s performance to do not come close to meeting the standards for ineffective assistance
of counsel under Strickland, 466 U.S. 668 and its progeny. As explained previously, the
conspirac^to escape charge was well-supported by the extensive factual basis that
accompanied the plea agreement, which was read aloud during re-arraignment and which Conn
acknowledged by initialing every page. And Conn’s dissatisfaction with the length of his

Judgment was entered in that matter on July 17, 2017.
- 14-

‘

Case: 5:18-cr-00059-DCR-MAS Doc #• 52 Filed: 01731/20 Page: 15 of 15 - Page ID#: 391

sentence is not a basis for concluding that counsel provided ineffective assistance. There is no
indication that a different plea agreement was available or that the undersigned would have
been willing to impose a shorter sentence. Finally, Conn cannot receive habeas relief based
n an attorney’s alleged conflict of interest when that attorney did not represent him in the
instant action.
y.
Based on the foregoing, it is hereby
ORDERED as follows:
1.

Defendant Eric Conn’s motion to vacate, set aside, or correct sentence pursuant

to 28 U.S.C. § 2255 [Record No. 37] is DENIED.
2.

Tire defendant’s motion to reconsider [Record No. 50] is GRANTED to the

extent that the Court has considered the arguments presented inj

lings at Record Nos. 35,

37, 43, and 50. However, the relief requested under § 2255 is DENIED.
Dated: January 31, 2020.

a*-s»

*

1
IE

m

- 15-

Danny C. Reeves. Chief Judge
United States District Court
Eastern District of Kentucky

- /c-

l~-

. ;..

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY - " CENTRAL DIVISION
”
(at Lexington)
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)

Plaintiff,
V.
ERIC CHRISTOPHER CONN,
Defendant.
***

***

***

Criminal Action No. 5:
Criminal Action No. 5:
Criminal Action No. 5:
Criminal Action No. 5:

16-022-DCR
17-043-DCR
17-104-DCR
18-059-DCR

ORDER
***

Defendant Eric Conn has filed several motions for free transcripts in several cases and
in anticipation of filing motions to vacate, correct, or set aside his sentences under 28 U.S.C.
§ 2255. However, transcripts ordinarily are not furnished for the purpose of framing a motion
under § 2255. Lucas v. United States, 423 F.3d 683, 684 (6th Cir. 1970). This is because it is
assumed that, typically, a person in custody can recall the circumstances of a non-frivolous
error. Id. See also 28 U.S.C. § 753(f) (“Fees for transcripts furnished in proceedings brought
under section 2255 of this title to persons permitted to sue or appeal in forma pauperis shall be
paid by the United States ... if the trial judge or a circuit judge certifies that the suit or appeal
is not frivolous and that the transcript is needed to decide the issue presented ....”)
Conn concedes that transcripts ordinarily are not furnished to a defendant before he
has filed a § 2255 motion, but he contends that special circumstances warrant providing the
transcripts to him in this instance. See id. (citing United States v. Shoaf, 341 F.2d 832 (4th Cir.
1964)). However, he has failed to identify any circumstances that would warrant furnishing
him the requested materials.

jty
' •••
-i.

,'iV-

•. ••

..To begin, Conn contends that he.is entitled to a transcript of the detention hearing held
before then-United States Magistrate Judge Robert E. Wier on April 7, 2016. [5: 16-CR-022DCR, Record No. 78] Conn argues that his attorney was ineffective for advising him to plead
guilty to escape because he was not in custody at the time in question. But contrary to Conn’s
assertion, this transcript is not necessary to establish whether Conn was in custody. As the
government has pointed out, the “record is replete with documents and other items evidencing
that [Conn] was not detained.” [Record No. 340, p. 8] In fact, the magistrate judge did not
rule on the issue of detention during the detention hearing. Instead, he entered a separate Order
on April 12, 2016, concluding that Conn would be released pending trial, subject to various
terms and conditions. [Record No. 40]
Conn seeks various additional minute entries and transcripts to aid in crafting his
ineffective-assistance-of-counsel arguments. [5: 16-CR-022-DCR, Record Nos. 284, 308;
5: 17-CR-043-DCR, Record No. 58; 5: 17-CR-104, Record No. 62; 5: 18-CR-059, Record
Nos. 5, 14] He claims generally that these documents relate to his claims of ineffective
assistance in relation to his breach of the initial plea agreement and counsel’s advice to plead
guilty to escape. However, Conn was present at these hearings and has not explained why he
requires these documents to frame his arguments in a § 2255 motion.
Finally, Conn seeks the transcript from his sentencing in absentia, held on July 14,
2017. [5: 17-CR-043-DCR, Record No. 41] Although the defendant was absent (due to his
own actions), he has not identified any reason that this transcript is necessary to prepare a §
2255 motion. Conn makes the same vague assertions regarding ineffective assistance as it
relates to his breach of the plea agreement by absconding while on pretrial release. He also
suggests that counsel was ineffective for failing to object to the pre-sentence report, but he

TT*.

„ ...-Jjp
• • -w—-•ETTJC xfctTiSs

3=

——

•=■===■ ~irrrsi zjl
. 1

^esriblMigltglwhat pbgon^Y^^pi^J^^s^^^jegtiM^l^i^e^xteHt Conn
contends that his counsel did not consult him regarding his right to appeal, he has not indicated
how a transcript is necessary to present this claim in a § 2255 motion.
Accordingly, it is hereby
ORDERED that the defendant’s motions for transcripts in Lexington Criminal Action
No. 5: 16-022, Record No. 337; Lexington Criminal Action No. 5: 17-043, Record No. 86;
Lexington Criminal Action No. 5:17-104, Record No. 76; and Lexington Criminal Action No.
5: 18-059, Record No. 20 are DENIED.
Dated: March 5, 2019.

«
*
$

mm*•

Signed By:

vm? | Dannv C. Reeves
s

%

¥

United States District Judge

fcSf'BICT

-3 . •.. .

